January 19, 2010

ROSS PHILO
EXECUTIVE VICE PRESIDENT AND CHIEF INFORMATION OFFICER

JOHN T. EDGAR
VICE PRESIDENT, INFORMATION TECHNOLOGY SOLUTIONS

SUBJECT: Audit Report – Enterprise Architecture Within Information Technology
         (Report Number IS-AR-10-004)

This report presents the results of our audit of enterprise architecture (EA) within
Information Technology (IT) (Project Number 09RG018IS000). We conducted this self-
initiated audit to determine whether IT has a mature EA framework in place to support
future U.S. Postal Service initiatives. This audit addresses strategic and operational
risks. See Appendix A for additional information about this audit.

Conclusion

The existing EA framework within IT has not reached a level of maturity1 to facilitate
repeatable, defined, managed, and optimized processes and systems for the benefit of
its stakeholders and in support of future Postal Service initiatives. Management has
taken positive action toward implementation of EA within IT, such as designating a
manager of IT Strategy and Architecture, establishing an Enterprise Architecture
Committee (EAC), and identifying and eliminating some obsolete and redundant
processes. However, we believe further emphasis on EA within IT will benefit the
Postal Service. Specifically, senior level IT executives may not fully appreciate the
benefits of EA that would move IT to a higher level of maturity where activities cross
business areas horizontally. Further, although management formed an EAC, the
committee does not have the level of authority necessary to effectively govern all EA IT
solutions and projects. As a result, management may not fully and properly use Postal
Service information resources and information technologies to support its business
strategies and processes in order to achieve the business goals.




1
 Based on comparisons with the Carnegie-Mellon University Capability Maturity Model (CMM) and the Government
Accountability Office (GAO) Enterprise Architecture Management Maturity Framework (EAMMF). See Appendix C for
a comparison of the frameworks.
Enterprise Architecture Within                                                                        IS-AR-10-004
 Information Technology



EA Awareness

The Postal Service’s IT management has taken positive steps to create EA awareness
by establishing and staffing the IT Strategy and Architecture Office and appointing a
chief architect as suggested by best practices.2 However, IT executives may not fully
appreciate the benefits of EA that would move IT to a higher level of maturity where
processes are defined, managed, and optimized. This occurred because EA goals,
strategies, and objectives have not been established, documented, or effectively
communicated throughout IT. As a result, management may experience delays in
realizing the benefits of EA.3 See Appendix B for our detailed analysis of this topic.

We recommend the executive vice president, chief information officer, direct the vice
president, Information Technology Solutions, and manager, Information Technology
Strategy and Architecture, to:

1. Establish and document goals, strategies, and objectives that outline sponsorship
   and commitment to implementing Enterprise Architecture.

2. Communicate the established goals, strategies, and objectives throughout IT to
   ensure that the services provided align and support future Postal Services initiatives.

EA Governance

The EAC currently cannot enforce Postal Service EA policy. EA policy states that the
EAC must approve all Postal Service IT solutions that use new hardware or software
technologies and the development of new business technology solutions, in accordance
with the EAC review process.4 Although IT implemented and follows EA policy, it
should also encompass all IT solutions throughout the Postal Service. However, the
Executive Committee (EC) has not provided the EAC with the level of authority needed
to govern all IT solutions. As a result, while the EAC reviews and approves most
commercial off-the-shelf software products, it does not review all IT projects.5 By
strengthening the authority of the EAC, management can ensure the Postal Service is
fully and properly using information resources and technology to support business
strategies and processes. See Appendix B for our detailed analysis of this topic.




2
  Information Technology: A Framework for Assessing and Improving Enterprise Architecture Management (Report
Number GAO-03-584G, dated April 2003), and best practices conveyed to us in our benchmarking initiative with a
major transportation company.
3
  EA benefits include improvements in interoperability and integration through increased efficiencies; reduced or
eliminated duplications, cost, and technical risks; agility; and improved security.
4
  EA policy provided on Postal Service Corporate Technology; Policy, Process, and Standards website
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
5
  All IT projects include hardware and software technologies necessary to develop a new business solution. An
example of an IT project the EAC did not review is the Information Based Indicia/Revenue Protection Program.




                                                         2
Enterprise Architecture Within                                                                          IS-AR-10-004
 Information Technology



We recommend the executive vice president, chief information officer, request the
Executive Committee to:

3. Provide the Enterprise Architecture Committee with the level of authority
   commensurate with its responsibility to effectively govern (direct and oversee) all
   Postal Service information technology solutions in accordance with Enterprise
   Architecture policy.

EA Implementation

Corporate IT Portfolio managers have demonstrated their commitment to EA by
implementing some elements of integrated application development within their
individual business silos.6 For example, they have identified and eliminated some
obsolete and redundant processes. However, management has not fully evaluated all
IT projects and activities to determine commonalities between systems to leverage
efficiencies across business silos and to avoid redundant processes, as suggested by
best practices. This is occurring because management does not have a consistent
method for collaborating, assessing, and identifying commonalities (data and
processes) across the business silos. As a result, IT solutions may be duplicative,
incompatible, and more costly than necessary. See Appendix B for our detailed
analysis of this topic.

We recommend the vice president, Information Technology Solutions, direct the
manager, Corporate Information Technology Portfolio, to:

4. Establish a methodology and procedures for collaborating, assessing, and
   identifying commonalities (data and processes) to leverage efficiencies across the
   business silos.

Management’s Comments

Management agreed with our recommendations. In response to recommendation 1,
management is defining steps to establish goals, strategies, and objectives that outline
sponsorship and awareness for implementing EA. In addition, management is building
a 5-year roadmap for the business, information, and operational architectures. The
targeted completion date is March 31, 2010.

To address recommendation 2, management developed a series of tapings that
communicate EA goals, strategies, and objectives which were also communicated to
headquarters IT at their year-end town hall meeting. Management also plans to provide


6
  Silos are business operations, systems, or data that are not integrated or are considered “stove piped” and can be
duplicative and incompatible. These conditions prevent or require an expensive custom developed interface to
facilitate the sharing of data.




                                                          3
Enterprise Architecture Within                                                  IS-AR-10-004
 Information Technology


additional EA communications regarding EA activities within the TSLC.7 In addition, the
Enterprise Solutions Investment Board (ESIB) will communicate the purpose and value
of EA efforts to executive management, including how IT will align with and support
business initiatives. The targeted completion date is March 31, 2010.

In response to recommendation 3, the Executive Committee has given the ESIB the
authority to review, recommend, and prioritize IT investments. The Executive
Committee intends for the ESIB to work in cooperation with the IT EA to review projects
involving a significant investment to ensure solutions fit into the strategic EA direction.
The EAC will review ESIB-approved projects to ensure they adhere to best practices,
standards, and controls. The chief information officer has authorized the EAC to review
and make determinations for projects that fall outside the minimum threshold for ESIB
review and to provide EA governance and oversight for corporate IT solutions. IT EA is
drafting a new EA process to incorporate this authority and oversight which will become
a part of the overall IT governance documentation and incorporated into policy. The
targeted completion date is June 30, 2010.

To address recommendation 4, management has taken steps to assess and identify
commonalities across the business units by leveraging a postal process reference
model. This model defines the business context of the Postal Service by business type
and is similar to models used in other posts. Management plans to accomplish this in
two phases, with phase 1 completion planned for March 2010, and phase 2 completion
planned for June 2010.

See Appendix D for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service, Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations, and their corrective actions should
resolve the issues identified in the report.

The OIG considers recommendations 1 and 3 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




7
    Technology Solutions Life Cycle.




                                             4
Enterprise Architecture Within                                              IS-AR-10-004
 Information Technology


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Frances E. Cain, director,
Information Technology, or me at (703) 248-2100.


      E-Signed by Inspector General
    VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Richard H. Epstein
    Charles L. McGann, Jr.
    Harold E. Stark
    Sally K. Haring




                                          5
Enterprise Architecture Within                                                                     IS-AR-10-004
 Information Technology


                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

EA is a blueprint, defined largely by interrelated models, that describes (in both
business and technology terms) an entity’s current or “as is” environment, an entity’s
future or “to be” environment, and a plan for transitioning from the current to the future
environment. EA principles are designed to ensure that business strategies and IT
investments are aligned with, and support, an organization's strategic plan. A mature
EA framework promotes decision making to improve performance, maximize the value
of investments, exploit innovation, and develop and further refine business and
information systems. Although there are various frameworks, all promote classifying
and organizing complex information and data structures. Examples of EA frameworks
include, but are not limited to:

       The Open Group Architecture Framework (TOGAF)
       The Carnegie-Mellon University CMM
       The Enterprise Architecture Maturity Model Framework (EAMMF)

See Appendix C for a comparison of the CMM and EAMMF.

The Postal Service has elected to use their own customized agile framework rather than
following a specific pre-defined model. The Postal Service bases their framework
primarily on TOGAF. Regardless of which framework is used, EA encompasses
people, processes, information, and technology as depicted below.8

                          Figure 1.




8
  Culture, Communication and Enterprise Architecture. Presentation by Tom Lucas at the Digital Government
Institute Enterprise Architecture Conference, June 19, 2009.




                                                       6
Enterprise Architecture Within                                                  IS-AR-10-004
 Information Technology


Since the Postal Service’s IT department began their EA activities, they have taken
steps to:

       Create awareness by establishing and staffing the IT Strategy and Architecture
        office.

       Appoint a chief architect.

       Provide EA funding.

       Gain efficiencies within individual business portfolios by reducing the number of
        applications supported by identifying and eliminating duplicate data and
        redundant or obsolete processes.

Postal Service IT groups that impact EA activities include:

       The IT Strategy and Architecture Office (established in 2009) — responsible for
        identifying existing architectures and adding rigor to the EA process, as practiced
        by the Postal Service. The office is staffed with the enterprise architect and two
        support staff members.

       The EAC — responsible for reviewing and approving all new or expanded uses
        of IT services or technology solutions.

       Corporate IT Portfolios — responsible for developing and implementing IT
        systems that support all Postal Service business functions and executive offices.
        There are eight portfolios that correlate with the business units.

       Technology Support — responsible for strategic acquisitions of hardware,
        software, and services to ensure IT aligns with demand, as well as EA and
        business strategies. In addition, Technology Support facilitates rapid,
        cost-effective project completions by its IT customers.

       Corporate Information Security — responsible for developing, implementing, and
        managing the Postal Service information security program.

       SOX/Postal Reform Group — responsible for standardizing IT policies and
        processes to support an IT governance program.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether IT has a mature EA framework in place to
support future Postal Service initiatives.




                                             7
Enterprise Architecture Within                                                IS-AR-10-004
 Information Technology


To accomplish our objective, we held meetings with IT vice presidents to determine the
history of EA implementation in the Postal Service. We also met with other IT
managers to determine the status, progression, and implementation of EA within IT and
the business portfolios. In addition, we reviewed and analyzed documentation on
business systems, EAC minutes, current IT portfolio architectures, and relevant policies
and procedures.

We consulted with a benchmarking contractor regarding preliminary activities for
conducting future benchmarking work. We also conducted research and identified two
potential benchmarking candidate companies with a mature EA framework — one a
major retail company and the other a major transportation company. We initiated
benchmarking with the major transportation company to identify best practices used in
this report. We also analyzed two EA frameworks and used prior reports and
assessments the GAO conducted in 2001 and 2003 to determine best practices for
implementing EA.

We conducted this performance audit from April 2009 through January 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We discussed our observations
and conclusions with management officials on December 14, 2009, and included their
comments where appropriate. We determined that the computer-generated data used
to support our findings was sufficiently reliable for the purposes of this audit.




                                           8
 Enterprise Architecture Within                                                      IS-AR-10-004
  Information Technology



 PRIOR AUDIT COVERAGE

                            Report      Final Report
   Report Title            Number           Date                     Report Results
Enterprise               DA-MA-07-001   July 17, 2007   Postal Service Engineering is in the
Architecture in                                         “awareness” category as measured against
Postal Service                                          the GAO’s EAMMF 1.1 framework. To
Engineering                                             increase its capability for technology
                                                        investment, Engineering, in conjunction with
                                                        other areas of the Postal Service, must
                                                        establish business processes that are
                                                        consistent and effective. We made two
                                                        suggestions in the report. Management
                                                        disagreed with the suggestion to consider
                                                        the value of EA opportunities and adopt
                                                        practices relevant for complying with
                                                        applicable laws. Management agreed with
                                                        the suggestion to incorporate mail
                                                        processing equipment technologies into the
                                                        Postal Service-wide EA.




                                              9
 Enterprise Architecture Within                                                         IS-AR-10-004
  Information Technology


                             Report     Final Report
    Report Title             Number         Date                      Report Results
Information                GAO-04-040   November 2003   The Postal Service’s self-assessed EA
Technology:                                             maturity levels for 2001 and 2003 indicated
Leadership Remains                                      their completion of the first two of five levels
Key to Agencies                                         of the GAO’s EAMMF. At the first level
Making Progress on                                      (Stage 1), they achieved an agency
Enterprise                                              awareness of EA.
Architecture Efforts
                                                        In accomplishing the second level of
                                                        maturity (Stage 2), the Postal Service built
                                                        an EA foundation that included a committee
                                                        or group (representing the enterprise)
                                                        responsible for directing, overseeing, and/or
                                                        approving EA; a program office responsible
                                                        for EA development; a chief architect; a
                                                        framework and an automated tool from
                                                        which EA was being developed; EA plans
                                                        that describe the Postal Service in terms of
                                                        business, data, applications, or technology;
                                                        and EA plans that describe the “as is”
                                                        environment, the “to be” environment, or
                                                        sequencing plan.

                                                        This report assessed the entire federal
                                                        government. As a result, recommendations
                                                        were addressed to the Office of
                                                        Management and Budget (OMB) and a
                                                        Congressional Committee. Responses to
                                                        the recommendations were general and
                                                        provided by OMB. While the report stated
                                                        the agencies agreed with the
                                                        recommendations, it did not specify the
                                                        Postal Service.




                                              10
Enterprise Architecture Within                                                                      IS-AR-10-004
 Information Technology


                               APPENDIX B: DETAILED ANALYSIS

EA Awareness

The Postal Service has pursued an effective EA framework since 2001, however, IT
executives may not have appreciated the benefits of EA that would move IT to a higher
level of EA maturity where processes are defined, managed, and optimized. In 2009,
the chief information officer took initial steps to create EA awareness by establishing
and staffing the IT Strategy and Architecture Office, appointing a chief architect, and
providing EA funding.9 However, management has not taken the steps needed to
establish and communicate EA goals, strategies, and objectives throughout IT. As a
result, management may experience delays in realizing the benefits of EA.

EA best practices10 suggest that:

        Organizations should focus on delivering and demonstrating business value.

        A basic awareness of EA is essential for building the EA foundation.

        Building an EA foundation consists of a demonstrated commitment to EA; the
         ability to meet the commitment; a documented program management plan; and
         metrics for measuring progress, quality, compliance, and return on investment.

        Enterprise architects should position themselves as leaders, not followers. They
         should position EA as enabling and empowering senior managers and business
         leaders to solve issues, not as a discretionary academic effort.

        Leaders must communicate the benefits of EA in addition to providing support
         and sponsorship, which is essential to the success of the enterprise architectural
         effort.

EA Governance

The EAC currently cannot enforce Postal Service EA policy. EA policy states that the
EAC must approve all Postal Service IT solutions that use new hardware or software
technologies or the development of new business technology solutions, in accordance
with the EAC review process. Best practices also stress the importance of having a
committee or group (representing the enterprise) with the level of authority
commensurate with its responsibilities to effectively govern (direct and oversee) EA.
For example, the company we interviewed during our benchmarking effort stated their
EA committee must approve all IT solutions prior to funding the project. Further, if a
project were to be submitted to finance without EA approval, it would be automatically
9
 The Financial Performance Report expense goal for fiscal year (FY) 2009 was established at $43,103.
10
  GAO-03-584G and best practices conveyed to us in our benchmarking initiative with a major transportation
company.




                                                       11
Enterprise Architecture Within                                                                             IS-AR-10-004
 Information Technology


rejected. However, the EC has not provided the EAC with the level of authority needed
to govern all IT solutions. As a result, while the EAC reviews and approves most
commercial off-the-shelf software products, they are not reviewing all IT projects. By
strengthening the authority of the EAC, management can ensure the Postal Service fully
and properly uses information resources and technologies to support business
strategies and processes.

EA Implementation

Corporate IT Portfolios have worked with the business units to implement some
elements of integrated application development within the individual silos. For example,
multiple portfolio managers have reduced the number of applications they support by
identifying and eliminating obsolete and redundant processes. However, not all IT
projects and activities have been fully evaluated to determine commonalities between
systems to leverage efficiencies across business silos, as suggested by best practices.
IT projects and activities that cut across business areas horizontally are limited to a few
projects, such as those the Telecommunications group administers and the Phoenix
initiative11 which the Shipping and Services Portfolio administers. Projects that did not
meet EA standards include, but are not limited to, the Information Based
Indicia/Revenue Protection Program; Systems, Applications, and Products in Data
Processing systems; and the Intelligent Mail and Address Quality’s high-speed
computer. According to IT managers, these systems conflict with EA standards by
allowing duplication, decreasing the capability of data sharing, and creating additional
security and privacy costs and risks.

According to best practices, the EA process is valuable in:

        Assisting in the selection and design of systems that align with the enterprise
         mission and strategic objectives.

        Helping improve the consistency, accuracy, timeliness, integrity, quality, and
         availability of data across the enterprise.

        Providing a holistic approach for evaluating the enterprise to ensure consistency
         with continuous improvement.




11
  Phoenix is a multi-channel, customer experience, improvement project. This effort includes all software as a
service architecture that will support usps.com, call centers, and retail. The infrastructure will include reusable
services that will be exposed to each of these channels.




                                                           12
Enterprise Architecture Within                                                                    IS-AR-10-004
 Information Technology


                       APPENDIX C: EA FRAMEWORK COMPARISON

The following table outlines the various stages of EA defined by the Carnegie-Mellon
University CMM and the GAO EAMMF. We used these models to identify best
practices that define a mature EA framework.
Stage                   CMM                                                EAMMF
 One     Initial (Ad-Hoc)                    Awareness
         Processes at this level are         At this stage, some EA activities exist, but efforts are ad hoc,
         (typically) undocumented and        unstructured, and lacking in institutional leadership and
         in a state of dynamic change.       direction.
 Two     Repeatable                          Building the EA Management Foundation
          Some processes are                The organization has:
              repeatable, possibly with       Committed necessary resources for developing
              consistent results.                 architecture (people, processes, and tools). For example,
          Process discipline is                  there is an architect, an EA office with staff, a group who
              unlikely to be rigorous, but        represents an entire enterprise and is responsible for
              where it exists it may help         directing, overseeing, or approving EA; and EA
              ensure that existing                development that uses a framework, methodology, and
              processes are maintained            tools.
              during times of stress.         Established goals/plans for developing some EA products.
                                                  For example, the “as is,” “to be,” and transition plans for
                                                  environments in terms of business, performance,
                                                  information/data, application/service, technology, and
                                                  security addressed for each environment. The plans also
                                                  call for developing metrics for measuring EA progress,
                                                  quality, compliance, and return on investment.
Three    Defined                             Developing EA Products
          Sets of defined and                Focuses on developing architecture products according to
             documented standard                  the selected framework, methodology, tools, and
             processes established and            established management plans.
             subject to some degree of        Applies resources to develop actual EA products.
             improvement over time.           Defines the scope of the architecture to encompass the
          These standard processes               entire enterprise.
             are in place and used to         Products describe the current (“as-is”) and future (“to-be”)
             establish consistency of             states and the plan for transitioning from the current to the
             process performance                  future state (the sequencing plan).
             across the organization.
 Four    Managed                             Completing EA Products
          Using process metrics,             EA products and management processes are completed
             management can                     and undergo independent verification and validation.
             effectively control process      EA products collectively describe the enterprise in terms of
             metrics.                           business, performance, information/data,
          Management can identify              service/application, and technology for current and future
             ways to adjust and adapt           operating states; and the products include a transition plan
             the process to particular          for sequencing from the current to the future state.
             projects without                 Business, performance, information/data,
             measurable loss of quality         application/service, and technology descriptions address
             or deviation from                  security.
             specifications.                  Evolution of the approved products is governed by a
                                                written EA maintenance policy approved by the
                                                organization head.




                                                      13
Enterprise Architecture Within                                                          IS-AR-10-004
 Information Technology


Stage                CMM                                         EAMMF
 Five    Optimized                    Leveraging the EA to Manage Change
         Processes focus on            Written and approved organization policy exists for IT
         continually improving           investment compliance with EA.
         performance through both      Process exists to formally manage EA change and EA is an
         incremental and innovative      integral component of the IT investment management
         technological changes and       process.
         improvements.                 EA products are periodically updated, IT investments comply
                                         with EA, and organization head has approved current version
                                         of EA.
                                       Both return on EA investment and compliance with EA are
                                         measured and reported.




                                                 14
Enterprise Architecture Within                              IS-AR-10-004
 Information Technology


                        APPENDIX D. MANAGEMENT’S COMMENTS




                                       15
Enterprise Architecture Within        IS-AR-10-004
 Information Technology




                                 16
Enterprise Architecture Within        IS-AR-10-004
 Information Technology




                                 17
